    "",SiRV'CI$'
                                                                                                   Office of Inspector General
f~"'+       ~"J;,      DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Office of Audit Services

Q
~+~-::;j
         Jit.--------------­
                                                                                                   Region VII
                                                                                                   60 I East 12th Street
                                                                                                   Room 0429

                   JUL 1 6 2009                                                                    Kansas City, Missouri 64106



                   Report Number: A-07-09-02756

                   Ms. Joan Henneberry
                   Executive Director
                   Department of Health Care Policy & Financing
                   1570 Grant Street
                   Denver, Colorado 80203-1818

                   Dear Ms. Henneberry:

                   Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                   General (GIG), final report entitled "Review of Medicaid Credit Balances at Sunny Vista Living
                   Center." We will forward a copy of this report to the HHS action official noted on the following
                   page for review and any action deemed necessary.

                   The HHS action official will make final determination as to actions taken on all matters reported.
                   We request that you respond to this official within 30 days from the date of this letter. Your
                   response should present any comments or additional information that you believe may have a
                   bearing on the final determination.

                   Pursuant to the Freedom of Information Act, 5 U.S.c. § 552, OIG reports generally are made
                   available to the public to the extent that information in the report is not subject to exemptions in
                   the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                   If you have any questions or comments about this report, please do not hesitate to call me at
                   (816) 426-3591, or contact Jim Korn, Audit Manager, at (303) 844-7153 or through email at
                   James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02756 in all correspondence.

                                                                  Sincerely,




                                                                 Patrick 1. Cogley
                                                                 Regional Inspector General
                                                                  for Audit Services


                   Enclosure
Page 2 – Ms. Joan Henneberry


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF MEDICAID CREDIT
  BALANCES AT SUNNY VISTA
      LIVING CENTER




                    Daniel R. Levinson
                     Inspector General

                        July 2009
                      A-07-09-02756
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (State agency) administers the State’s Medicaid program in accordance
with its CMS-approved State plan.

Providers of Medicaid services, such as nursing facilities, submit claims to the State agency in
order to receive compensation for the services they provide to Medicaid beneficiaries. The State
agency processes and pays the claims. The Federal Medical Assistance Percentage specifies the
percentage of each claim to be reimbursed by Federal funds (this reimbursement is commonly
referred to as the Federal share) and is determined pursuant to 42 CFR § 433.10.

Credit balances occur when the Federal reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges earned, for example when a provider
bills Medicaid for more days than the patient was at the facility. In such cases, the provider
should return the existing overpayment to the Medicaid program, which pursuant to 42 CFR
§ 433.139 is the payer of last resort.

To avoid abuse of the Medicaid program, sound fiscal and business practices require provider
repayment of identified overpayments within a reasonable period of time. Federal regulations
require States to adjust any outstanding credit balances within 60 days after notification by a
provider that a credit balance exists. The Code of Colorado Regulations at 10 CCR 2505-10
§ 8.076.1 defines abuse of the Medicaid program as provider practices that are inconsistent with
sound fiscal or business practices, to include failure to repay or make arrangements to repay
overpayments or payments made in error.

Sunny Vista Living Center (Sunny Vista) is a 100-bed nursing home located in Colorado
Springs, Colorado, that participates in the Medicaid program. It is an independent facility,
governed by a volunteer board of directors and not affiliated with any corporation, hospital, or
religious order. Sunny Vista provides rehabilitation, restorative services, and long-term care.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Sunny Vista’s
accounting records for patient services constituted overpayments that should have been returned
to the Medicaid program pursuant to Federal and State requirements.




                                                 i
SUMMARY OF FINDINGS

Medicaid credit balances recorded in Sunny Vista’s accounting records for patient services
included $74,163 ($37,081 Federal share) in unallowable overpayments that should have been
returned to the Medicaid program pursuant to Federal and State requirements. These Medicaid
credit balances also included $22,085 ($11,043 Federal share) in potentially unallowable
overpayments that may, subject to further evaluation by the State agency, have to be returned to
the Medicaid program.

Although Sunny Vista had informal policies and procedures to identify and confirm outstanding
Medicaid credit balances, those policies and procedures specified that after unsuccessful
repayment attempts, Sunny Vista would make no further repayment attempts, opting instead to
maintain the Medicaid overpayment until the State agency’s audit (which typically occurs once
every four or five years). As a result, Sunny Vista did not repay Medicaid overpayments totaling
$74,163 ($37,081 Federal share) to the Medicaid program in a reasonable time period in
accordance with Federal and State Medicaid requirements.

These errors occurred because Sunny Vista had inadequate policies and procedures in place to
ensure the timely reimbursement of Medicaid overpayments. Specifically, Sunny Vista did not
always have policies and procedures in place to:

   •   document the appropriate method for returning Medicaid overpayments via the State
       agency’s online payment system or any other method;

   •   communicate with the State agency to resolve any repayment issues; and

   •   notify the State agency regarding outstanding Medicaid credit balances that were due and
       payable.

Furthermore, our audit revealed that most of the credit balances over 60 days old were Medicaid
overpayments. Due to the inadequacy of policies and procedures that would ensure that Sunny
Vista would notify the State agency and refund any overpayments, we are setting aside, for
adjudication by the State agency, the remaining credit balances at that facility: credit balances
that we did not review and that totaled $22,085 ($11,043 Federal share) in potentially
unallowable costs.

In our review of the accounts in Sunny Vista’s accounting records, we determined that $21,768
($10,884 Federal share) were not actually overpayments. These funds were included in Sunny
Vista’s accounting records in error.

RECOMMENDATIONS

We recommend that the State agency:

   •   recover from Sunny Vista the $74,163 ($37,081 Federal share) of Medicaid
       overpayments and refund the $37,081 to the Federal Government;


                                                ii
   •   work with Sunny Vista to evaluate the remaining credit balances that we did not review
       and determine what portion (if any) of the $22,085 ($11,043 Federal share) was due to
       Medicaid overpayments, and then collect that portion and refund the Federal share to the
       Federal Government; and

   •   ensure that Sunny Vista develops, implements, documents, and maintains written policies
       and procedures to identify outstanding Medicaid credit balances and to notify the State
       agency of these credit balances in a timely manner.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency’s comments appear in their entirety as the Appendix.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Federal Reimbursement and Medicaid Credit Balances......................................1
              Sunny Vista Living Center...................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          FEDERAL AND STATE MEDICAID REQUIREMENTS............................................4

          UNALLOWABLE MEDICAID OVERPAYMENTS ....................................................4

          POTENTIALLY UNALLOWABLE MEDICAID OVERPAYMENTS ........................5

          INADEQUATE POLICIES AND PROCEDURES ........................................................5

          RECOMMENDATIONS.................................................................................................6

          STATE AGENCY COMMENTS....................................................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (State agency) administers the State’s Medicaid program in accordance
with its CMS-approved State plan.

Federal Reimbursement and Medicaid Credit Balances

Providers of Medicaid services, such as nursing facilities, submit claims to the State agency in
order to receive compensation for the services they provide to Medicaid beneficiaries. The State
agency processes and pays the claims. The Federal Medical Assistance Percentage specifies the
percentage of each claim to be reimbursed by Federal funds (this reimbursement is commonly
referred to as the Federal share) and is determined pursuant to 42 CFR § 433.10.

Credit balances occur when the Federal reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges earned, for example when a provider
bills Medicaid for more days than the patient was at the facility. In such cases, the provider
should return the existing overpayment to the Medicaid program, which pursuant to 42 CFR
§ 433.139 is the payer of last resort.

To avoid abuse of the Medicaid program, sound fiscal and business practices require provider
repayment of identified overpayments within a reasonable period of time. Federal regulations
require States to adjust any outstanding credit balances within 60 days after notification by a
provider that a credit balance exists. The Code of Colorado Regulations at 10 CCR 2505-10
§ 8.076.1 defines abuse of the Medicaid program as provider practices that are inconsistent with
sound fiscal or business practices, to include failure to repay or make arrangements to repay
overpayments or payments made in error.

Sunny Vista Living Center

Sunny Vista Living Center (Sunny Vista) is a 100-bed nursing home located in Colorado
Springs, Colorado, that participates in the Medicaid program. It is an independent facility,
governed by a volunteer board of directors and not affiliated with any corporation, hospital, or
religious order. Sunny Vista provides rehabilitation, restorative services, and long-term care.




                                                 1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Sunny Vista’s
accounting records for patient services constituted overpayments that should have been returned
to the Medicaid program pursuant to Federal and State requirements.

Scope

We identified $118,016 ($59,008 Federal share) which comprised the 95 accounts in Sunny
Vista’s accounting records whose net Medicaid credit balances were, as of February 28, 2009,
outstanding over 60 days. We selected 24 of the 95 accounts totaling $95,931 ($47,965 Federal
share) for detailed testing.

We did not review the overall internal control structure at either Sunny Vista or the State agency
because our objective did not require us to do so. Rather, we limited our review of internal
controls to obtaining an understanding of the policies and procedures that Sunny Vista used to
review credit balances and report overpayments to the Medicaid program.

We performed our fieldwork in April 2009 at Sunny Vista in Colorado Springs, Colorado.

Methodology

To accomplish our objective, we:

   •    researched and reviewed Federal and State requirements pertaining to Medicaid credit
        balances;

   •    identified and reconciled Sunny Vista’s Medicaid credit balances to its accounting
        records as of February 28, 2009;

   •    reconciled Sunny Vista’s February 28, 2009, credit balance list to the accounts receivable
        records, and reconciled the accounts receivable records to the general ledger;

   •    judgmentally selected and tested 24 credit balance accounts that were outstanding over 60
        days, that had Medicaid listed as a payer, and that had credit balances greater than
        $1,000;

   •    reviewed provider claims reports, patient accounts receivable detail, and additional
        supporting documentation for each of the judgmentally selected credit balance accounts;
        and

   •    coordinated our audit with officials from the State agency.




                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Medicaid credit balances recorded in Sunny Vista’s accounting records for patient services
included $74,163 ($37,081 Federal share) in unallowable overpayments that should have been
returned to the Medicaid program pursuant to Federal and State requirements. These Medicaid
credit balances also included $22,085 ($11,043 Federal share) in potentially unallowable
overpayments that may, subject to further evaluation by the State agency, have to be returned to
the Medicaid program.

Although Sunny Vista had informal policies and procedures to identify and confirm outstanding
Medicaid credit balances, those policies and procedures specified that after unsuccessful
repayment attempts, Sunny Vista would make no further repayment attempts, opting instead to
maintain the Medicaid overpayment until the State agency’s audit (which typically occurs once
every four or five years). As a result, Sunny Vista did not repay Medicaid overpayments totaling
$74,163 ($37,081 Federal share) to the Medicaid program in a reasonable time period in
accordance with Federal and State Medicaid requirements.

These errors occurred because Sunny Vista had inadequate policies and procedures in place to
ensure the timely reimbursement of Medicaid overpayments. Specifically, Sunny Vista did not
always have policies and procedures in place to:

   •   document the appropriate method for returning Medicaid overpayments via the State
       agency’s online payment system or any other method;

   •   communicate with the State agency to resolve any repayment issues; and

   •   notify the State agency regarding outstanding Medicaid credit balances that were due and
       payable.

Furthermore, our audit revealed that most of the credit balances over 60 days old were Medicaid
overpayments. Due to the inadequacy of policies and procedures that would ensure that Sunny
Vista would notify the State agency and refund any overpayments, we are setting aside, for
adjudication by the State agency, the remaining credit balances at that facility: credit balances
that we did not review and that totaled $22,085 ($11,043 Federal share) in potentially
unallowable costs.

In our review of the accounts in Sunny Vista’s accounting records, we determined that $21,768
($10,884 Federal share) were not actually overpayments. These funds were included in Sunny
Vista’s accounting records in error.




                                                3
FEDERAL AND STATE MEDICAID REQUIREMENTS

42 U.S.C. § 1396(b)(d)(2)(C) states that, “when an overpayment is discovered, which was made
by a State to a person or other entity, the State shall have a period of 60 days in which to recover
or attempt to recover such overpayment before adjustment is made in the Federal payment to
such State on account of such overpayment . . . . [T]he adjustment in the Federal payment shall
be made at the end of the 60 days, whether or not recovery was made.”

Pursuant to the implementing regulations for this legislation, 42 CFR § 433, subpart F,
“Refunding the Federal Share of Medicaid Overpayments to Providers,” States must adjust any
outstanding credit balances.

In accordance with these Federal regulations, the State agency must adjust the applicable claim
or recover the amount of the Medicaid overpayment from the provider within 60 days of
notification. The Code of Colorado Regulations at 10 CCR 2505-10 § 8.076.3 states that
identified overpayments to a provider are recoverable “. . . through a repayment agreement with
the Provider, by offsetting the amount owed against current and future claims of the Provider,
through litigation, or by any other appropriate action within the [State agency’s] legal authority.”

The Code of Colorado Regulations at 10 CCR 2505-10 § 8.076.1 defines abuse of the Medicaid
program as provider practices that are inconsistent with sound fiscal or business practices, to
include failure to repay or make arrangements to repay overpayments or payments made in error.
To avoid abuse of the Medicaid program, sound fiscal and business practices require provider
repayment of identified overpayments within a reasonable period of time. Although the State
regulations contain this language, the State of Colorado does not have any regulations requiring
providers to refund Medicaid credit balances within a specified timeframe.

UNALLOWABLE MEDICAID OVERPAYMENTS

Medicaid credit balances recorded in Sunny Vista’s accounting records for patient services
included $74,163 ($37,081 Federal share) in unallowable overpayments that should have been
returned to the Medicaid program pursuant to Federal and State requirements. Our judgmental
sample identified 24 cases of Medicaid credit balances at Sunny Vista that were, as of
February 28, 2009, over 60 days old.

These overpayments occurred because Sunny Vista did not properly maintain patient census data
and patient fiscal records and used a daily reimbursement rate higher than the Medicaid approved
rate. Sometimes the credit balances were outside the control of the nursing facility because the
appropriate county did not verify the beneficiary’s income or determine the patient payment
amount in a timely manner.

The types of issues described above can be improved, but the normal operations of the nursing
home facility are such that overpayments will occur. Accordingly, this review focused on
whether Sunny Vista had adequate policies and procedures in place to notify and repay the State
agency in a timely manner once a Medicaid overpayment had been identified.




                                                 4
Sunny Vista had informal policies and procedures to review the Accounts Receivable Detail
Report to identify and confirm outstanding Medicaid credit balances. When a Medicaid credit
balance was identified, Sunny Vista attempted to make a repayment using the State agency’s
online system. However, if this was unsuccessful, Sunny Vista recorded the credit balance in an
accounts payable account and, pursuant to its informal policies and procedures, made no further
repayment attempts. Sunny Vista planned to hold onto the Medicaid funds until the State agency
performed its next audit of the facility, which typically occurs once every four to five years. As
a result, Sunny Vista did not repay Medicaid overpayments totaling $74,163 ($37,081 Federal
share) to the Medicaid program in a reasonable time period in accordance with Federal and State
Medicaid requirements.

POTENTIALLY UNALLOWABLE MEDICAID OVERPAYMENTS

Medicaid credit balances recorded in Sunny Vista’s accounting records for patient services
included $22,085 ($11,043 Federal share) in potentially unallowable overpayments that may,
subject to further evaluation by the State agency, have to be returned to the Medicaid program.

Our audit revealed that most of the credit balances over 60 days old—that is, most of the credit
balances above and beyond the 24 that we judgmentally selected for review—were Medicaid
overpayments. Due to the inadequacy of policies and procedures that would ensure that Sunny
Vista would notify the State agency and refund any overpayments, we are setting aside, for
adjudication by the State agency, the remaining credit balances at that facility: credit balances
that we did not review and that totaled $22,085 ($11,043 Federal share) in potentially
unallowable costs.

INADEQUATE POLICIES AND PROCEDURES

Sunny Vista had inadequate policies and procedures in place to ensure the timely reimbursement
of Medicaid overpayments pursuant to Federal and State requirements. Specifically:

   •   Sunny Vista did not have written policies and procedures in place to notify the State
       agency regarding outstanding Medicaid credit balances that were due and payable.

   •   Sunny Vista had not documented its current policies and procedures to identify and
       confirm outstanding Medicaid credit balances or to notify the State agency of such
       balances. Thus, although it appeared that the current Accounting staff was properly
       identifying Medicaid overpayments, a continued absence of documented policies and
       procedures, if combined with any future employee turnover at Sunny Vista, could lead to
       problems in the identification, and timely notification to the State agency, of the
       outstanding Medicaid overpayments.




                                                 5
RECOMMENDATIONS

We recommend that the State agency:

   •   recover from Sunny Vista the $74,163 ($37,081 Federal share) of Medicaid
       overpayments and refund the $37,081 to the Federal Government;

   •   work with Sunny Vista to evaluate the remaining credit balances that we did not review
       and determine what portion (if any) of the $22,085 ($11,043 Federal share) was due to
       Medicaid overpayments, and then collect that portion and refund the Federal share to the
       Federal Government; and

   •   ensure that Sunny Vista develops, implements, documents, and maintains written policies
       and procedures to identify outstanding Medicaid credit balances and to notify the State
       agency of these credit balances in a timely manner.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency’s comments appear in their entirety as the Appendix.




                                               6
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
